                       U.S. Department of Agriculture
                          Office of Inspector General
                                      Midwest Region




              Audit Report
Controls Over the Sugar Beet Disaster Program
       and Production Estimates for the
        Sugar Price Support Program




                          Report No. 03601-0011-Ch
                                         JULY 2004
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250


DATE:         July 26, 2004

REPLY TO
ATTN OF:      03601-0011-Ch

SUBJECT:      Controls Over the Sugar Beet Disaster Program and Production Estimates for the
              Sugar Price Support Program
TO:           James R. Little
              Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff


We have completed our survey of the Farm Service Agency’s (FSA) controls over the subject
areas. Our objectives for the Sugar Beet Disaster Program were to evaluate controls to ensure
producers were eligible; payments were correct; and the sum of the sugar beet crop’s value, net
crop insurance indemnity, and sugar beet disaster payment did not exceed 100 percent of the
value of expected production. In response to a request from agency officials, we also evaluated
controls over the accuracy of production estimates provided by sugar beet processors, and
assessed the risk that processors provided inaccurate production estimates to FSA for the Sugar
Price Support Program. Our survey did not disclose any problems in those areas.

BACKGROUND

The Agricultural Assistance Act of 2003 authorized the Sugar Beet Disaster Program, which
provided assistance to producers who had suffered sugar beet losses due to weather-related
disasters or other emergency conditions. In 2003, FSA paid over $48 million to producers for
sugar beet losses, including over $24 million to producers in Minnesota and another $10 million
to producers in North Dakota. FSA disbursed the remaining $14 million to producers in 9 other
States. To receive program payments, producers had to complete a farm operating plan, wetland
determination, and gross income certification. FSA also required uninsured producers to provide
documentation as to production results. In addition to information submitted by producers, FSA
relied on loss data provided by the Risk Management Agency (RMA) to determine producer
eligibility and calculate loss percentages for the Sugar Beet Disaster Program. FSA’s automated
system integrated the RMA information into the disaster payment program.

For the Sugar Price Support Program, FSA collects production data and confidential production
estimates monthly from sugar beet processors and forwards this information to the World
James R. Little                                                                                2


Agricultural Outlook Board, which determines U.S. sugar supply and use. FSA uses World
Board data to calculate an overall sugar allotment quantity that closely matches estimated U.S.
demand. FSA divides this overall quantity into individual allotments for the nine sugar beet
processors nationwide based on their historical production. The individual allotments limit the
amount of sugar each processor can sell.

SCOPE AND METHODOLOGY

We performed work from January to May 2004 at FSA’s National Office, the Minnesota State
FSA Office, two FSA county offices in Minnesota, and the Southern Minnesota Beet Sugar
Cooperative. For the Sugar Beet Disaster Program, we evaluated FSA’s internal controls over
producer eligibility and payment amounts. We also evaluated FSA’s controls to ensure the sum
of producer’s sugar beet crop’s value, net crop insurance indemnity, and sugar beet disaster
payment did not exceed 100 percent of the value of expected production. We judgmentally
selected 20 producers who participated in the Sugar Beet Disaster Program. We selected
producers who farmed in multiple counties or had high payment amounts. FSA disbursed
$4.6 million in program payments for crop years 2001 and 2002 in our sampled counties. The
producers in our sample from those counties received nearly $570,000 in disaster payments for
sugar beet losses. We reviewed FSA, RMA, and processor records for our sampled producers to
verify the accuracy of payments and evaluate the adequacy of stated controls. These records
included FSA’s Reports of Acreage, RMA’s policyholder information and production
worksheets, and sugar processors’ yield reports. We interviewed FSA and processor staff as
needed to accomplish our objectives.

For the Sugar Price Support Program, we selected the sugar processor at the request of FSA
officials. We reviewed this processor’s support for actual and estimated production for the first
and last months of fiscal year 2003.

We conducted this audit in accordance with Government Auditing Standards.

SUMMARY OF WORK PERFORMED

For the 20 judgmentally selected producers, we verified that FSA had adequate controls to
ensure accurate Sugar Beet Disaster Program payments were made to eligible producers. Our
tests disclosed that FSA correctly used RMA data when determining if producers met the 35
percent loss determination. Also, FSA used RMA data to calculate the various payment options
and to ensure that sugar beet crop values, net crop insurance indemnities, and sugar beet disaster
payments did not exceed 100 percent of the value of expected production. We verified the
accuracy of calculated payment amounts. Lastly, we verified that each producer had a signed
farm operating plan, wetland determination, and a gross income certification. We found that all
producers had properly completed the forms.
James R. Little                                                                                3

For the Sugar Price Support Program, FSA officials were concerned that sugar processors were
overstating production estimates to obtain larger sugar allotments. The production records of the
processor in our review supported the estimates provided to FSA. We also concluded that
processors could not substantially increase sugar allotments by overstating production estimates.
We made this conclusion because FSA bases sugar allotments on historical production, and only
uses estimates if it needs to reassign a processor’s allotment. In our sample year, FSA
reassigned less than two percent of the overall allotments.

CONCLUSION

Our examination did not identify any material internal control weaknesses in the review areas.
We concluded that FSA had adequate controls to ensure that only eligible producers received
accurate Sugar Beet Disaster Program payments. We also concluded that processor
overstatements of production estimates for the Sugar Price Support Program would not adversely
impact sugar allotments.

We appreciate the assistance and cooperation of your staff. If you have any questions, please
have a member of your staff contact Ernest M. Hayashi, Director, Farm and Foreign Agricultural
Division, at (202) 720-2887.



/S/

ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Informational copies of this report have been distributed to:

Agency Liaison Officer, FSA                          (4)
Office of the Chief Financial Officer
  Director, Planning and Accountability Division     (1)
U.S. Government Accountability Office                (1)
Office of Management and Budget                      (1)
